COVINGTON
SAN FRANCISCO SEOUL SHANGHAI WASHINGTON

Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001-4956
T +1 202 662 6000

Via Express Mail

December 6, 2019

BEIJING BRUSSELS DUBAI FRANKFURT JOHANNESBURG
LONDON LOS ANGELES NEW YORK PALO ALTO

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Pittman v. Harris, No. 19-466
Dear Mr. Harris:
We represent Respondent in the above-captioned case. The petition for a writ
of certiorari in this case was filed on October 7, 2019. On December 3, 2019, the Court
requested a response by January 2, 2020.
Pursuant to Rule 30.4 of the Rules of this Court, we hereby request an
extension of time of 30 days, to and including February 3, 2020, within which to
respond to the petition. This request for an extension of time is necessary in light of
the work and travel schedules of counsel, particularly in light of the upcoming
holidays. Counsel for Petitioner has indicated that Petitioner does not object to this
extension.
Sincerely,

RECEIVED

DEC - 6 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

DC: 7193944-2

(i2

7

Rafael Reyneri
Richard L. Rainey
Kevin F. King

